No. 20-257
IN THE

Supreme Court of the United States
CHIPOTLE MEXICAN GRILL, INC.,
AND CHIPOTLE SERVICES, LLC,
Petitioners,
v.
MAXCIMO SCOTT, ET AL.,
Respondents.
Proof of Service
I hereby certify that 1 copy of the Brief of the Chamber of Commerce of the United
States of America and the National Retail Federation as Amici Curiae in Support of
Petitioners was sent by U.S. Mail to the U.S. Supreme Court, and that all parties required
to be served have been served by electronic mail this 1st day of October, 2020. Service has
been made upon the following:
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
Counsel for Petitioners

Wayne N. Outten
Outten & Golden LLP
685 3rd Avenue, 25th Floor
New York, NY 10017
(212) 245-1000
WNO@outtengolden.com
Counsel for Respondents
Dated October 1, 2020
/s/ Scott A. Keller
Scott A. Keller
Counsel of Record
BAKER BOTTS L.L.P.
700 K Street NW
Washington, DC 20001
(202) 639-7700
scott.keller@bakerbotts.com
Counsel for Amici Curiae

